Memorandum from the Office of the Inspector General



July 31, 2007

Paul R. LaPointe, WT 3A-K

FINAL REPORT – INSPECTION 2007-506I – REVIEW OF NON-COMPETE
CONTRACTS



Attached is the subject final report for your review and action. As discussed with your
staff, the subject report is being issued in presentation format. Your staff’s informal
comments to the draft report have been incorporated in the final report. Please advise
us of your planned actions in response to our findings within 60 days of the date of this
report.

Information contained in this report may be subject to public disclosure. Please advise
us of any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Michael A. Driver, Project Manager, at
(423) 751-8158 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections,
at (423) 751-7821. We appreciate the courtesy and cooperation received from your staff
during the audit.




Ben R. Wagner
Deputy Inspector General
ET 3C-K

HRK:BKA
Attachment
cc (Attachment):
      William H. Bonham, WT 3A-K
      Jamie E. Keith, WT 3A-K
      Tom D. Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      Kenneth E. Tilley, WT 3A-K
      OIG File No. 2007-506I
Review of Non-Compete Contracts

            2007-506I
           July 31, 2007
Table of Contents

     Summary
     Background
     Objective and Scope
     Methodology
     Finding 1: Incomplete Documentation
     Finding 2: Adequacy of the Justification
     Finding 3: Classification Issues
     Recommendations




                                                 2
Summary

   Our objective was to determine whether TVA non-competed contracts are
   issued and administered in compliance with TVA policies and procedures,
   including assessing the justification for the non-competed contract award.
   In summary, we selected 52 non-compete contracts for review and found:
     Two could not initially be located for review and seven did not have Form 17388 and/or
       the appropriate Notification/Approval required by TVA polices and procedures.
     Three of the contracts reviewed did not appear to have an appropriate justification as
       outlined in Section 9 (b) of the TVA Act and INSTRUCTION 1, Business Practice 9
       (BP9), Implementing Procedures.
     Multiple contracts, which are not governed by BP9, are classified under a justification
       that does not apply to the contract.




                                                                                                3
Background

      Section 9 (b) of the TVA Act generally requires competition for purchases and
       contracts for supplies and services. The following provides procurement
       guidance for TVA personnel:
         –   BP9 outlines TVA’s policy related to competition. The objective of BP9 is to support
             TVA’s goals and lower the total cost of acquired goods and services.
                    According to INSTRUCTION 1, BP9, Implementing Procedures, titled Management of TVA’s
                     Supply Chain Process, “The instruction also provides for more consistent control and
                     oversight of existing contracts through better contract management and reemphasizes
                     Procurement’s responsibility for ensuring TVA obtains the best value for its contracts.”
         –   The Technical Contract Manager User Guide (TCMUG) was developed “to provide all
             TVA Technical Contract Managers (TCM’s) with guidelines to assist them in performing
             their duties involving TVA’s Supply Chain activities.”
      According to INSTRUCTION 1, BP9, Implementing Procedures, “it is TVA’s
       Policy to complete all of its purchase orders/contracts for material, equipment,
       supplies, and services, including consultant and professional services.”
         –   TVA defines competition as soliciting proposals from two or more businesses that can
             satisfy a requirement.


                                                                                                         4
Background (continued)


       – The level of competition should be sufficient to ensure TVA obtains the best
         value from its purchase.
       – The requirement to obtain competition includes contract amendments that are outside the
         scope of the original contract.

      PassPort is the TVA system used for supply chain management.

      Under TVA Policy, requisitioners are required to justify any requested non-
       competitive contract or revision/amendment outside the scope of the original
       contract.

      Form 17388, Request for Approval Non-Competed Contracts or Supplements, is
       to be used to justify non-competed contracts and obtain appropriate levels of
       management approval.




                                                                                            5
Background (continued)

      The head of each major organization (Level 1) must be notified prior to award of any
       contract greater than $1 million or cumulative amendments exceeding $1 million. The TVA
       Board of Directors must be notified prior to award of any Consulting contracts greater than
       $25,000 or cumulative amendments exceeding $25,000.
      Acceptable justifications for a non-competed contract or contract amendment are as follows:
        – Emergency procurements – contracts that protect property or life from destruction, or return a critical
           operating unit from a forced outage.
        – Small dollar procurements - contracts under $25,000 where the benefit expected to be derived from
          competition would not exceed the cost of the competitive process.
        – Single and sole source procurements1 – contracts that occur when only one supplier or manufacturer
          has the knowledge, expertise, experience, and capability to perform the given task.
        – Supplemental contract/amendments – contracts that include the procurement of materials, equipment
          parts, or services which, because of a particular circumstance, are available from only one source.
          Examples would be specific parts or services required to keep warranties in effect, purchase of brick to
          match brick already installed, or equipment that must match installation specifications for previously
          used equipment.


        1Sole source terminology was discontinued in 2002 based on the terminology used in BP9. BP9 refers to this type
         of contract as a single source contract.




                                                                                                                   6
Background (continued)

        –     Federal Supply Schedule (FSS) procurements – FSS contracts awarded by the General Services
              Administration.2
        –     Interagency Agreements – procurements from other government entities.2
      We included in our Fiscal Year 2007 Inspection Plan a review of non-compete contracts to
       assess whether TVA non-competed contracts are issued and administered in compliance
       with TVA policies and procedures.
        –     As of February 2007, there were 3,840 non-compete contracts in the PassPort database.
        –     For testing purposes, we excluded FSS and Interagency contracts along with contracts with a status
              of closed, complete, review, terminated, or history as of December 31, 2006.
                  The resulting population included 873 contracts.
                  The contract population with a determinable contract amount had a value of over $1.4 billion.3
                  Contracts included in the population began as early as 1968 and do not expire until 2049.
                  There are 121 contracts with an undetermined contract value4 and 100 with an undetermined
                    contract end date.



        2We have excluded federal supply schedule and interagency agreements procurements from our scope.
        3Contract
                amount based on data in PassPort.
        4Amended contract values listed as $999,999,999.00 were considered undetermined. In addition, utility contracts with the
         amended contract values of $99,999,999 and $999,001,289 were also considered undetermined.




                                                                                                                                   7
Background (continued)

         Total Dollar Value of the Population by the Justification Type
                     (Excludes contracts with an undeterminable value)
                                    Supplements
                                    $53,363,161
                      Sole Source
                     $187,310,034                  Emergency $261,788



           Small Purchases
             $7,243,969




                                                                      Single Source
                                                                     $1,232,665,045




                                                                                      8
Objective and Scope

    Objective:
    The objective of our review was to determine whether TVA non-competed contracts
    are issued and administered in compliance with TVA policies and procedures,
    including assessing the justification for the non-competed contract award.

    Scope:
    Our population included non-competed contracts classified as emergency, sole source,
    single source, small dollar procurements, and supplements that had a status of
    approved, pending, or issued as of December 31, 2006. A sample size of 52 contracts
    was selected.




                                                                                           9
Methodology

   Methodology:
   To achieve our objective, we:
    –   Gained an understanding of the key process and control activities related to the awarding of non-
        compete contracts by:
             Reviewing TVA policies and procedures applicable to non-compete contracts.
             Interviewing TVA Procurement personnel.
    –   Used PassPort data to judgmentally select a sample of 52 contracts for review. Specifically, we:
             Assessed compliance with TVA policies by determining if (1) Form 17388 was completed and approved as required
              and (2) the required non-compete justification was in accordance with prescribed guidelines.
             Reviewed the (1) terms of the contract, (2) amendments, and (3) other information included in the contract file to
              assess the appropriateness of the documented justification.
             Interviewed contract managers to attain additional information related to the selected non-compete contracts.

        The selected sample consisted of the following justifications:
                                               Number Selected in
                   Justification of Contract       Sample               Original Contract Amount       Amended Contract Amount


           Single/Sole Source                         33            $    59,007,327                $    119,262,656


           Small Purchase                             16            $       320,372                $      2,041,899


           Supplement                                  3            $       569,080                $      5,004,010


           Total                                      52            $    59,896,779                $    126,308,565




                                                                                                                                 10
Methodology (continued)
      The sample included the following types of contracts:
                                             Number Selected in       Original Contract       Amended Contract
                 Type of Contract                Sample                    Amount                 Amount
        AP Miscellaneous                             3            $      153,000          $      153,000
        Broker Agreement                             2            $13,000,000             $ 16,000,000
        Contract with Credit Card Payments           1            $        5,000          $       64,000
        Engineered Equipment                         4            $22,539,600             $ 65,653,769
        Sales/Revenue                                1            $             -         $            -
        Licensing Agreement                          2            $      344,999          $    3,649,910
        Loan/Lease Agreement                         1            $      391,478          $    2,154,576
        Membership Subscription                      2            $ 6,050,000             $    6,050,000
        Professional Services                       17            $ 7,438,632             $ 20,541,120
        Service Contract                            19            $ 9,974,070             $ 12,042,190
        Total                                       52            $59,896,779             $126,308,565




      This inspection was conducted in accordance with the “Quality Standards for Inspections.”




                                                                                                                 11
Finding 1: Incomplete Documentation

      For the 52 contracts selected for review, (1) 2 of the contracts and associated
       files could not initially be located and (2) 7 did not have Form 17388 and/or the
       appropriate Notification/Approval required by TVA polices and procedures.
        –   Of the 52 contracts in our sample, 2 contracts could not be attained during the course
            of our review.
                 We were informed by the responsible contract manager that the contracts may have been
                  sent to be entered into Electronic Document Management System (EDMS). However, these
                  contracts could not be located by the EDMS Group.
                 Procurement management stated that files are sent to EDMS upon completion. However,
                  neither of these contracts have reached the end date indicated in PassPort.
                 One of these contracts was found in storage after our initial review was complete.
        –   Of the contracts reviewed, 7 were lacking the required Form 17388, and 2 were
            lacking the appropriate Notifications/Approvals. Both Form 17388 and a required
            Notification/Approval were missing from the contract file for 2 of the contracts we
            reviewed.
        –   Although management and the form itself states that Form 17388 is not required for
            contracts under $25,000, the TCMUG requires that the form be completed for all non-
            compete contracts.
               Our sample included 16 contracts that were classified as small dollar
                  purchases. None of these contracts included an initial Form 17388.



                                                                                                    12
Finding 1: Incomplete Documentation
(continued)
      –   The following chart shows that contracts with a single/sole source justification had
          the most documentation issues.
                                         Number of            Original Contract             Amended Contract
            Justification of Contract   Discrepancies              Amount                       Amount

           Single/Sole Source                5          $      2,029,705                $    8,941,124

           Small Purchase                    1          $         20,000                $       400,000
           Supplement                        1          $        195,000                $     1,325,000


      –   The following chart shows that the type of contracts with the most documentation
          issues were Professional Service.
                                               Number of               Original Contract       Amended Contract
                 Type of Contract             Discrepancies                 Amount                 Amount

           Professional Services                    5                 $     2,029,705          $    8,941,124

           Services                                 2                 $      215,000           $    1,725,000




                                                                                                                  13
Finding 2: Adequacy of the
Justification
      We found that 3 (about 6 percent) of the contracts reviewed did not appear to
       have (1) an appropriate justification as outlined in Section 9 (b) of the TVA Act
       and BP9 Instruction 1 and/or (2) supporting documentation for the justification.
        –   Even though classified as non-competed, multiple vendors were considered for 3 of the
            33 single/sole source procurements reviewed.
                 Correspondence included in 1 contract file indicated that the selected vendor was being paid
                  twice as much as others providing the same service to TVA. The cost of other available
                  vendors was listed in the contract file.
                     –   When this issue was discussed with Procurement at the completion of the review, Procurement stated this
                         contract was awarded on a sole source basis to provide backup in Washington, D.C., for 2 valley contracts.
                 According to the justification included in 2 of the contract files, informal reviews of other
                  available vendors were conducted. We found no other documentation supporting that these
                  reviews had been conducted.
                     –   Procurement stated that informal reviews are done to ensure due diligence for the sole source issuance
                         and should not be included in the contract file. Additionally, they stated that the required signatures on
                         Form 17388 are sufficient for approval.




                                                                                                                               14
Finding 2: Adequacy of the
Justification (continued)

     –   The following chart shows that only contracts with a sole/single source justification had
         issues.

                                               Number of          Original Contract   Amended Contract
                  Justification of Contract   Discrepancies            Amount             Amount

                  Single/Sole Source               3          $      81,476           $   670,016




                                                                                                         15
Finding 3: Classification Issues

       We found that some of the contracts in our sample were not governed by BP9,
        yet were classified under the non-compete contract justifications in PassPort
        because there were no other appropriate classifications therein.
         –   The following are contracts included in our sample that are not governed by BP9:
                  The Board of Directors authorized TVA organizations, other than Procurement, to initiate
                   programs and find a suitable vendor to support the program. These contracts were classified
                   as single/sole source procurements, but were initiated by other organizations and did not have
                   supporting documentation for a single/sole source justification:
                      –   A contract for service fees for Electro notes relating to TVA Power Bonds.
                      –   A contract for New York Mercantile Exchange Futures Clearings relating to the TVA Financial
                          Trading Program.
                      –   A contract for enhancement to the Security Deposit Program.
                  A River System Operations and Environment revenue contract for disposal services for outside
                   entities was classified as single/sole source procurement.
                  A cooperative agreement classified as a small dollar purchase which was amended to
                   $251,000.
                  A contract entered into by Realty Management for a line-use agreement was classified as a
                   sole/single source procurement.



                                                                                                                  16
Finding 3: Classification Issues
(continued)
                  A cooperative agreement was included as a sole source contract.
                  An incentive contract related to a TVA program was included as a sole source
                   contract.


    Additional Information:
       We originally selected 74 non-compete contracts for review but excluded 22 administrative
        contracts which are only used to track accounts payable.
       We noted that 45 out of 314 (14 percent) small dollar procurements in the population were
        with utilities and had an undetermined value in both the original and amended value fields.
       There were 3 PassPort keying errors identified in the sample that are being corrected by
        Procurement.
         –   A keying error resulted in an increase in the contract value.
         –   A contract was incorrectly classified as non-compete.
         –   A keying error resulted in a sole source contract being classified as a small dollar contract.
       We noted during our review that contracts with supplements that have been competed
        remain classified as non-compete contracts in PassPort.



                                                                                                              17
Recommendations

      We recommend that the Senior Vice President of Procurement consider:
        –   Ensuring that established policies and procedures relating to documentation are
            followed.
        –   Ensuring that adequate documentation exists to support non-compete contract
            decisions.
        –   Clarifying whether Form 17388 is required for contracts with a value less than
            $25,000.
        –   Establishing classifications in PassPort for contracts originating outside of
            Procurement which are not governed by BP9.




                                                                                              18
